                   Forward Pricing Indirect Rate Review for
                              Fiscal Year 2003

                                     March 2005

                      Reference Number: 2005-1C-043




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            March 29, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Forward Pricing Indirect Rate Review for Fiscal Year 2003
                              (Audit #20051C0208)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s Fiscal
       Year (FY) 2003 forward pricing proposal dated May 3, 2002. The purpose of the
       examination was to determine whether the proposed forward pricing indirect rates and
       costs are acceptable as a basis to negotiate fair and reasonable contract prices.
       The DCAA opined that the contractor’s original cost or pricing data are inadequate. The
       original proposal was not prepared in all respects in accordance with applicable Cost
       Accounting Standards (CAS) and appropriate provisions of the Federal Acquisition
       Regulation. The DCAA identified questioned costs that significantly changed both the
       General Overhead and General and Administrative rates. During the examination, the
       DCAA discussed its position with the contractor, and the contractor concurred with the
       DCAA’s position for FY 2003. In the DCAA’s opinion, the final revised cost or pricing
       data submitted by the offeror in the revised forward pricing budget proposal are
       adequate because the contractor corrected the areas of CAS noncompliance.
       However, the contractor did not agree to revise its indirect rates for FYs 2004 and
       forward. Rather, the contractor verbally advised the DCAA that it would propose
       accounting changes effective with FY 2004 and prepare a revised budget. The DCAA
       has not yet received the revised Disclosure Statements with official notification of any
       accounting changes. Due to uncertainties associated with the out-years
       (FYs 2004 – 2006), the DCAA had no basis upon which to evaluate the Civil Group’s
       forward pricing indirect rates beyond FY 2003. Accordingly, the examination was
       limited to an evaluation of the indirect rates for FY 2003.
                                            2

The DCAA also stated the contractor is in the process of planning an internal
reorganization that will be effective at the beginning of the contractor’s FY 2004.
However, the contractor has not provided a proposal that identifies the potential impact
of the planned reorganization on the proposed forward pricing rates.
This DCAA report was issued in January 2003; however, the Treasury Inspector
General for Tax Administration (TIGTA) did not receive copy of the report until
February 2005. The Internal Revenue Service (IRS) previously received a copy of the
report directly from the DCAA. We are transmitting this report to you to enable the IRS
to track any financial accomplishments derived from negotiations with the contractor
based on the results of this DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
